GR-40-98-013

U.S. DEPARTMENT OF JUSTICE
 
Audit Report
  
Office of Community Oriented Policing Services
Grants to the Gwinnett County, Georgia, Police Department
 
GR-40-98-013
June 1998
 

EXECUTIVE SUMMARY
 
The Office of the Inspector General, Audit Division, has completed an audit of grants
awarded by the U.S. Department of Justice, Office of Community Oriented Policing Services
(COPS), to the Gwinnett County, Georgia, Police Department (GCPD). The GCPD received a
$594,741 grant to hire or rehire 8 additional sworn officers under the Accelerated Hiring,
Education, and Deployment (AHEAD) program and a $900,000 supplement to the AHEAD grant to
hire or rehire 12 additional sworn officers under the Universal Hiring Program.
In brief, our audit determined the GCPD:


- Claimed $370,642 in excess salaries and fringe benefits by not increasing the number
    of officers performing community policing by the number of officers funded under the
    grants. 
- Claimed $31,025 in salaries and fringe benefits not authorized by the Office of
    Justice Programs (OJP). 


- Submitted some monitoring reports to COPS and OJP late, and incorrectly reported to
    OJP total program outlays and the Federal share of outlays.


#####